<html>
<title> - THE STRUGGLES OF RECOVERING ASSETS FOR HOLOCAUST SURVIVORS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







       THE STRUGGLES OF RECOVERING ASSETS FOR HOLOCAUST SURVIVORS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2014

                               __________

                           Serial No. 113-210

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-815PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
CURT CLAWSON, Florida                LOIS FRANKEL, Florida

                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Jack Rubin (Holocaust survivor)..............................    10
Ms. Klara Firestone (daughter of Holocaust survivors)............    29
Barbara Paris, M.D. (physician who focuses on the care of 
  Holocaust survivors)...........................................    31
Ms. Eugenie Lieberman (daughter of Holocaust survivor)...........    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Jack Rubin: Prepared statement...............................    13
Barbara Paris, M.D.: Prepared statement..........................    34
Ms. Eugenie Lieberman: Prepared statement........................    40

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
Ms. Klara Firestone: Prepared statement..........................    58
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    71

 
       THE STRUGGLES OF RECOVERING ASSETS FOR HOLOCAUST SURVIVORS

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2014

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The joint subcommittee will come to 
order.
    After recognizing myself, Chairman Rohrabacher, Ranking 
Member Deutch, Ranking Member Keating for opening statements, 
we will then recognize other members seeking recognition and we 
will hear from our witnesses.
    Without objection, the witnesses' prepared statements will 
be made a part of the record and members may have 5 days in 
which to insert statements and questions for the record, 
subject to the length limitation in the rules.
    The Chair now recognizes herself for 5 minutes.
    This is a hearing we never should have to hold. Yet, it is 
a topic that must be addressed as Holocaust survivors around 
the world continue to suffer injustices of the past and their 
needs and well-being go neglected.
    I want to acknowledge our late Congressman, the chairman of 
this committee, Tom Lantos, whose painting adorns the wall, a 
Holocaust survivor with whom I worked closely during his time 
here on the committee.
    Six million Jews were murdered at the hands of the Nazis 
during the Holocaust, and millions more suffered unspeakable 
atrocities committed against them and their loved ones. All of 
their properties and belongings were stolen as the Nazis 
deported them to ghettos and concentration camps where most of 
them died of starvation, exhaustion, torture, or in gas 
chambers.
    The toll the Holocaust has taken on survivors is 
unimaginable and it is unforgivable, but we cannot forget that 
it takes a tremendous toll on the second generation as well, as 
we will hear from our brave witnesses.
    Today there are less than \1/2\ million survivors of 
humanity's darkest period, with nearly half of all survivors 
worldwide living at or below the poverty level, and it is 
painful to see those who have suffered so greatly continue to 
struggle day in and day out as if they had not suffered enough.
    And with the average age of Holocaust survivors estimated 
at 82, time is truly running out for us to bring them some sort 
of justice, some kind of closure, so that they can live out the 
rest of their lives in dignity and comfort.
    I believe that more can and must be done. Holocaust 
survivors are barred from suing in Federal courts those 
insurance companies that failed to pay out Holocaust-era 
policies. At the very minimum, given that no money can ever 
replace the experience of suffering under the Nazis--at the 
very minimum, we should let the survivors and their families 
have their day in court.
    Another avenue for the survivors was the International 
Commission on Holocaust Era Insurance Claims, ICHEIC, which 
closed in 2007, no matter how many times they say it is never 
closed. This system was flawed due to the problems with 
accountability and oversight, which led to--listen to this--84 
percent of the claims being rejected, 84 percent being 
rejected.
    These survivors and their families need to be made whole, 
and this is why it is vital for Germany and other nations to 
fulfill their obligations and for insurance companies that have 
been running out the clock in a deliberate attempt to avoid 
paying out rightful claims to be held accountable and to 
finally pay for what they owe these survivors, for what they 
owe these survivors.
    These countries and these greedy insurance companies owe 
these survivors. This is what is rightfully theirs and what has 
been denied to them for decades, forcing them to relive this 
atrocity over and over again.
    And it is not just these insurance companies and foreign 
governments that have let our Holocaust survivors down. We need 
to take a closer look at what more our own Government, the 
United States Government, can be doing as well.
    As a Member of Congress who represents Holocaust survivors, 
I hear from my constituents that we in Congress must do more. 
Folks like Joe Sachs, like David Mermelstein, folks we will 
hear from today, they tell me that all the time.
    I have heard repeatedly concerns from some of my 
constituents regarding the failure, the deception, the lies of 
the Claims Conference and how, though this is intended to help 
survivors receive fair compensation, it has been an impediment 
in the process.
    Just like so many other senior citizens, survivors need 
extensive medical care. They are likely to have greater health 
needs than the general population and are more likely to face a 
number of certain illnesses, such as chronic depression, 
cognitive impairments, osteoporosis, post-traumatic stress 
syndrome. It is, therefore, vital for survivors to receive the 
financial, medical, and social support that so many desperately 
need.
    Struggling to make ends meet and still fighting to correct 
the injustices of the past, it is important to hear from 
Holocaust survivors and their relatives as they share their 
stories and their daily struggles that they face as they seek 
to live out the remainders of their lives in security and 
dignity. Is that too much to ask?
    ICHEIC has let Holocaust survivors down, no matter how the 
members of ICHEIC spin this. So it is up to us in Congress to 
step up and help the survivors.
    Thank you.
    And I am looking forward to hearing from our witnesses.
    And I would like to point out that we have a person in the 
audience who is very interested in this--I am sorry if I don't 
pronounce your name correctly--Yael Fuchs, who is the Assistant 
Attorney General, Charities Bureau of the State of New York, 
Office of the Attorney General. Thank you very much.
    And they have been closely following the plight of 
survivors and want to see justice for them.
    And, with that, I turn to a fighter for Holocaust survivors 
and--from his early days as a college activist and even before, 
Congressman Ted Deutch.
    Thank you, Ted.
    Mr. Deutch. Madam Chairman, thank you. I want to thank you 
not for just calling today's hearing, but I want to thank you 
for being such a tremendous advocate and a partner in our 
efforts to ensure that every single survivor can live out their 
lives in dignity.
    I want to recognize and I want to thank our witnesses for 
being here, in particular, my constituents from South Florida, 
Jack Rubin and Eugenie Lieberman.
    Over the years, Jack has shared his own story and has shed 
light on the plight of other survivors so many times here in 
Congress, and he has done it out of his commitment to achieve 
justice.
    And, Jack, I am grateful that you are here with us once 
again today.
    I am privileged to represent a significant number of 
survivors in South Florida, like the chairman as well. I often 
speak of how, when I was first elected to office in 2006, it 
used to be standing room only at the Yom HaShoa at the 
Holocaust Remembrance Day events, and every year, 
unfortunately, there are more and more empty seats.
    The survivor population, a group that endured some of the 
greatest horrors in history, is now one of our most vulnerable. 
Today we will examine the particularly unique set of challenges 
to and the needs of the survivor community.
    According to most estimates, there are over 500,000 
survivors worldwide with roughly 120,000 survivors living in 
the United States. Estimates show that up to half live in 
poverty.
    Survivors face a set of challenges different from most 
older Americans. Their experiences have left them fearful of 
the loss of control and independence that can come with aging, 
and the thought of depending on meal services or 
institutionalized care can dredge up painful memories.
    Most survivors are dependent on social service agencies to 
supplement their needs. However, for survivors, the process of 
applying for assistance or filing claims can be difficult and 
can be painful. Some are still wary of disclosing too much 
personal information. Often survivors may be unaware of what 
benefits and resources are available to them.
    The Jewish family service agencies on the ground in our 
communities, other social service agencies who work with them, 
face the daunting task of allocating funds for survivor care 
that are, quite frankly, never enough.
    According to the Association of Jewish Family and 
Children's agencies, an umbrella organization of social service 
providers, its members report that they require anywhere from 
an additional $100,000 to $4 million per year to provide for 
the basic needs of survivors in their communities.
    Some communities have resorted to private fundraising to 
fill this gap, but most survivors do not want the American 
taxpayer to shoulder the cost of their care.
    The Conference on Jewish Material Claims--the Claims 
Conference was established to negotiate reparations from the 
German Government, and it is worth remembering that German 
Chancellor Konrad Adenauer pledged to care for every survivor 
until their last breath.
    Unfortunately, in recent years, the Claims Conference has 
been plagued by accusations of mismanagement of funds. And I 
was extremely concerned to see the recent announcement that the 
Claims Conference was going to consider devoting more and more 
of their resources to Holocaust education rather than to the 
care for survivors. I am glad to see that this decision has 
since been reversed.
    I also remain concerned that there is not an updated 
accurate accounting of survivors' needs, and I welcome the 
recent steps taken to address this issue. This administration 
has also taken a series of steps to help survivors.
    The State Department, under the leadership of the Special 
Envoy for Holocaust issues, has been intimately involved in 
pressing European capitals to pass restitution laws, but more 
must be done to ensure that those who have not enacted 
restitution laws do so and that those who have are actually 
abiding by these laws.
    Under the leadership of Vice President Biden, the White 
House last year announced a new initiative to aid survivors, 
including the appointment of a special envoy for Holocaust 
survivor services that serves as a liaison between communities 
and social service agencies, a volunteer training program to 
build the capacity of these agencies, and $5 million in the 
President's budget to leverage a public-private partnership.
    But despite the best intentions--the best-intentioned 
efforts to aid survivors, the unfortunate reality is that care 
is still lacking. These men and women who have overcome life's 
most unimaginable horrors should not live one more day in 
poverty.
    Madam Chairman, the simple fact is that we cannot allow one 
more survivor to have to face the painful choice of whether to 
buy that month's medicine or groceries.
    As the population ages, there are many survivors who will 
need round-the-clock care. Constraints placed on funding and 
caps on home-care hours prevent them from getting the care they 
desperately need while being able to remain in the comfort and 
familiarity of their own home.
    Chairman Ros-Lehtinen and I have in past years introduced 
the Tom Lantos Justice for Holocaust Survivors Act, named for 
the former chairman of this committee, the only Holocaust 
survivor to serve in Congress.
    Too often the process of filing claims for property or 
insurance policies was far too arduous for survivors and their 
heirs. Finding proper documentation left over after the war is 
nearly impossible. There must be a better way to ensure that 
these families get the justice that they deserve.
    Madam Chairman, there are 500,000 survivors worldwide, a 
number that is decreasing every day. We must get an accurate 
understanding of the needs of the community, not the needs 
based on limitations imposed by existing agreements, but what 
it will actually cost to ensure that every survivor can live 
out his or her life in dignity, and we need to find the money 
to provide that care. That is what we owe our survivors.
    I stand ready to help. I will work with the Claims 
Conference. I will work with local social service agencies, 
with the survivor community, with any group that wants to help.
    But instead of fighting about the merits of particular 
actions that have been taken over the years, let's agree that 
at this point time is running out for the survivors, and let's 
figure out what's necessary to do and then let's get it done.
    I can't--I can't adequately express my gratitude to the 
witnesses for being here today to courageously share their 
stories or the stories of their loved ones. Please know that we 
are committed to working until every survivor gets the care 
they need and until every survivor gets the respect that they 
deserve.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And I am so pleased that Mr. Rohrabacher and Mr. Keating's 
subcommittee have joined in this effort to get justice for 
Holocaust survivors.
    So I am pleased to yield to our subcommittee chair, Dana 
Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much. And I would like to 
thank Chairwoman Ros-Lehtinen and Ranking Member Deutch for 
their great leadership on this issue.
    My committee was invited to participate, and we are proud 
to participate today and to support you in this very worthwhile 
and admirable endeavor. So you can call on us, too. We again 
thank you for this. And I am pleased that we are able to hold 
this as a joint hearing today and that may make this a joint 
project.
    This afternoon's hearing is on the struggle to recover the 
assets of Holocaust survivors and to consider their well-being. 
It is an important and timely subject, as we have already 
heard.
    There are about 100,000 Holocaust survivors in the United 
States today. But due to the passage of time, that number is 
reduced nearly every day. Those survivors have been a living 
memorial to the tragedy and the crime of the Holocaust. It is a 
very good thing that today we are discussing how each one of 
them can find justice and compensation, even if it is delayed.
    I understand that a large percentage of survivors live near 
the poverty line. Perhaps a quarter of them in the United 
States live below that threshold. And it is a very sad 
statistic. Yet, I am glad that there are Jewish organizations 
working to help alleviate the harsh conditions in which too 
many of these survivors live. These groups have my sincere 
thanks and my admiration.
    Too often horrible things happen to innocent people in this 
world, but I am reminded of the saying, ``The arc of the moral 
universe is long, but it bends toward justice.'' And I think 
that is clearly the case here. It says something about what we 
are going to hear about today.
    And we have some heroic witnesses, including Holocaust--a 
Holocaust survivor and the family of two Holocaust survivors. 
And I thank them for being here and sharing their story with 
us, giving us a human face to the statistics that we can talk 
about. But it is really the human face that we are concerned 
about today.
    After the end of a conflict or war, it is often impossible 
to return land or property to its former civilian owners in a 
timely fashion, even if at all. But what we should make sure 
that we strive to ensure is that there be an equitable 
compensation for victims in this situation.
    During this hearing, I have learned more about the living 
conditions of Holocaust survivors and how we can make sure that 
their care and medical attention is there but, also, in how we 
bring justice to this issue.
    Thank you again for holding the hearing. I am happy to have 
my committee as a part of this.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Rohrabacher. We 
are blessed to have you join in this effort, and we thank you 
for that great opening remark.
    And now we would like to turn to the ranking member of that 
subcommittee, Mr. Keating of Massachusetts.
    Mr. Keating. Thank you, Madam Chairman.
    And I would like to thank our witnesses today, as their 
testimonies will allow us to determine the needs of Holocaust 
survivors in our communities and do everything to make sure 
those needs are met.
    As a young boy growing up in Sharon, Massachusetts, one of 
my neighbors was a survivor of a concentration camp. I didn't 
understand everything I understand now. I recall seeing the 
tattooed--tattoos on her wrist and inquired as to what that was 
all about.
    And as I reflect back now, being more mature and 
understanding more about what she went through, in growing up 
with her family and going to school with her children, I now 
can reflect fully on the challenges that she had. Sadly, she is 
now deceased. But estimates indicate that up to 5,000 survivors 
live in my home State of Massachusetts.
    One organization called Schechter Holocaust Services 
currently provides services to approximately 200 of these 
survivors, which include emergency financial assistance, home-
care services, and case management. Eighty-six percent of this 
organization's clients are over the age of 75, and 56 percent 
are female. Fifty-four percent have Russian as their primary 
language, which is why assistance is provided both in Russian 
and in English.
    Since the tale of the survivors tell us so much more than 
statistics can ever do, Schechter Holocaust Services has 
graciously allowed me to share a story that illustrates the 
needs of this population.
    Mrs. G is an 87-year-old woman. She was 8 years old when 
she was sent out of Germany alone to escape the Nazis. Her 
parents were killed. She settled in the Boston area and later 
married and had one child, who developed severe mental illness 
as a teen. Mr. G died 20 years ago and, since then, Mrs. G has 
struggled to provide for herself and to provide for her 
daughter, who is now 65 years old.
    Mrs. G was introduced to Schechter Holocaust Services and 
was able to receive a wide range of support from emergency 
assistance and home care to management services, mental health 
counseling, a friendly visitor, an invitation to the holiday 
events.
    In the last couple of years, Mrs. G's dementia 
unfortunately worsened and her daughter, who receives daily 
mental health services, had increasing medical and psychiatric 
problems.
    In light of this emergency situation, Schechter Holocaust 
Services spearheaded communications with Mrs. G's only family, 
her deceased husband's nephew and niece. They then worked with 
her relatives and with State programs. Finally, after months of 
effort, they found a place in a lovely assisted living facility 
for her and a nursing home for her daughter. Mother and 
daughter continue to visit each other.
    Schechter Holocaust Services states that it was a 
combination of private funding and Claims Conference funding 
that enabled them to help Mrs. G. I believe Mrs. G's story 
reflects the remarkable capacity of the individuals and the 
organizations that care for the survivor population.
    That being said, many survivors do not seek or have access 
to these types of services. Further, I have heard repeated 
complaints that the Social Security Administration employees, 
at times, seem insensitive to the needs of this community and 
insist upon having survivors secure pensions from their former 
Soviet Union. This, quite frankly, is unacceptable.
    For this reason, I look forward to hearing our witnesses' 
insights today as well as recommendations on overcoming 
existing impediments to accessing not only the care and 
assistance that they deserve, but, also, the necessary 
information about the family businesses and assets in Nazi-
occupied areas as well.
    Thank you for being here.
    And, with that, I yield back, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Keating.
    Now I would like to recognize members for any opening 
statements they might like to make.
    And we start with Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chairman, for holding this 
very important hearing.
    I was in Poland and Lithuania just about 3 weeks ago. And 
while in Poland, we drove out to Treblinka and saw the location 
where about 900,000 lives, mostly Jewish, were eliminated in 
about a year's period of time. It was a very moving experience.
    And while in Vilnius, Lithuania, we met with a survivor 
there who told us what had basically happened there, and she 
was one of the--she escaped literally the day when the Nazis 
were coming in to exterminate the people there.
    And she escaped and spent the rest of the war with the 
partisans and survived. She was 93 years old and a very 
impressive young woman. Just incredible. Very--just a little 
woman. Not a young woman. A little woman.
    But, in any event, I also had the opportunity to meet with 
government officials there. And when I raised this particular 
issue, having talked with some folks prior to this codel, I got 
an indication of how difficult a process it is in trying to 
facilitate the recovery of assets of Holocaust survivors.
    The Poles maintain that they lost more than anybody in 
World War II, 3 million Poles dead, including 90 percent of the 
Jewish population, and that much of the property theft that 
took place in areas are no longer part of Poland, they claim, 
and they are Belarus and Germany and Eastern Ukraine, for 
example. Our Ambassador, who has worked extensively on the 
issue, told our delegation that some cases have taken 20 to 30 
years to decide.
    When I brought up the issue to a top Polish Government 
official, he expressed some frustration with the process, but 
said--and I am quoting here--``We are proud of what we have 
done. It takes time,'' not particularly encouraging.
    So I hope we can discuss this afternoon how we can 
encourage the involved parties and governments to improve the 
adjudication process so it doesn't take such an unconscionably 
long time and that property can be more expeditiously restored 
to the survivors and descendants of the rightful owners.
    I yield back. Thank you.
    Ms. Ros-Lehtinen. Well done--well said.
    Mr. Schneider is recognized.
    Mr. Schneider. Thank you, Madam Chairman. I want to thank 
the chairmen of both subcommittees and the ranking members for 
calling this very important hearing, for our witnesses today 
for sharing both their experiences and their insights on this 
critical issue.
    Twenty-four years ago I had the opportunity to visit Poland 
and the camps of Auschwitz, others, with survivors. I was in 
Krakow. I recall the priests from Krakow for the first time to 
a Jewish group publicly apologizing for--and taking some 
responsibility.
    The hearing today, the conversations we have had now for 
generations, has been about justice. And 3 weeks ago, in 
synagogues around the world, Jews read from the Torah portion 
Shoftim, one of the lines of which is ``Justice, justice shall 
you pursue.''
    This hearing is about pursuing justice and not stopping 
until--and I will repeat the words of my colleague--the 
survivors have the care that they need, the justice that they 
deserve. This is what we are here today for.
    I thank you for your commitment and willingness to be here 
to share your stories. I look forward to the rest of this 
hearing.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chair. And thank you for 
your leadership on this incredibly important issue.
    And I also thank the ranking member for his strong and 
persistent leadership on this issue and for his very eloquent 
opening remarks.
    I just want to extend my gratitude to the witnesses who are 
here today to provide testimony to this committee.
    And I particularly want to thank and welcome Mr. Rubin 
because I am certain that sharing his personal experience will 
be a painful experience. And thank you for your willingness to 
do that again and for being before the committee.
    As we all recognize, the events of the Holocaust are one of 
the worst atrocities known to man where 6 million individuals 
were systematically murdered by the Nazis. And we have an 
obligation not only to remember that, but to be sure that we do 
all that we can to ensure that the survivors of this 
unspeakable moment in human history are both cared for and 
provided with all the dignity and justice they so richly 
deserve.
    So I welcome the witnesses and look forward to hearing the 
testimony.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Vargas.
    Mr. Vargas. Thank you very much, Madam Chair.
    And thank you, ranking members and chairs, for being here 
today.
    I would associate myself with all the comments made here 
today. I would also say that, in San Diego, we have had this 
wonderful program where Holocaust survivors have gone to the 
schools and have talked to the children.
    I have been in on a number of those talks, and I remember 
one that moved me very deeply when they talked about--the 
person that was there talked about all the things that did not 
happen in the world because we lost 6, 8 million Jews, all the 
things that didn't happen in Qualcomm in San Diego. They said 
there could have been 10 Qualcomms. We could have discovered so 
many things. So much was lost to humanity.
    And so I am here to help in any way I can. And I thank very 
much the witnesses here, and I look forward to again hearing 
your testimony and helping in any way I can.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Vargas.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman. And thank you for 
holding this hearing.
    There aren't words to describe the horror of the Holocaust, 
and Mr. Rubin gives testimony to the fact that this is not 
ancient history. This happened not so long ago, as measured by 
history. And two words really come to my mind about the 
response. One is there has to still be accountability and then, 
secondly, there has to be expiation.
    We still find treasures robbed from Jewish victims that 
show up in museums, that show up in auction houses, show up in 
private collections.
    Just the other day, an individual in his 90s was fingered 
for having participated in atrocities during the Holocaust. So 
this is not something far away, and it is something that we 
must address and never forget.
    I thank both the chairman and ranking member for their 
holding this hearing and for their eloquent commitment to this 
issue.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    And now we are pleased to introduce our witnesses.
    First are--both of our subcommittees are pleased to welcome 
Mr. Jack Rubin, who survived the atrocities of the Holocaust.
    In 1944, Mr. Rubin was deported to the Beregsastz Ghetto. 
From there, he was once again deported to Auschwitz, where he 
was liberated in May 1945. Jack was fortunate enough to come to 
America, and he served honorably and proudly in the United 
States Army.
    Over the course of his life, Jack has reached out to other 
survivors and has dedicated so much of his time to creating 
awareness about the horrors of the Holocaust. He has testified 
before in many different venues, and he is joined by his son, 
who was kind enough to help him come here today.
    Jack, we are honored with your presence.
    We are also pleased to have with us Klara Firestone, who 
has worked with Holocaust survivors since 1978. She is a 
founding member of the Coordinating Committee of Generations of 
the Shoah International and a board member of the Los Angeles 
Museum of the Holocaust.
    We welcome you. Thank you so much.
    We are also joined by Dr. Barbara Paris, who is currently 
vice chair of medicine and director of the geriatrics division 
at the Maimonides Medical Center in New York. Dr. Paris has 
dedicated her life to studying the needs of survivors from 
clinical perspectives. Her practice is located in the 
neighborhood with the highest concentration of Holocaust 
survivors in the United States.
    Welcome, Doctor.
    And last, but certainly not least, we are pleased to 
welcome Eugenie Lieberman. Eugenie is the daughter of Iver 
Segalowitz, who was the only survivor of his family, the only 
survivor of his family. Her father invested countless hours 
advocating for other Holocaust survivors. Iver kept fighting 
his entire life until he could no longer with be us.
    Our deepest condolences, Eugenie. And his fight now carries 
out through you.
    So we welcome our distinguished panel for being with us 
today. We will first hear from Mr. Jack Rubin.
    Your prepared statement has been made a part of the record. 
Please feel free to summarize as you wish.
    Welcome, Jack. If you could push the button on the 
microphone and hold it close to your mouth so we can all hear 
you.

        STATEMENT OF MR. JACK RUBIN (HOLOCAUST SURVIVOR)

    Mr. Rubin. Good afternoon, Madam Chairwoman Ileana Ros-
Lehtinen, Ranking Member Ted Deutch.
    As you know well, my name is Jack Rubin. I was born in 
Vari, Czechoslovakia, and I am a survivor of several Nazi 
concentration and death camps.
    You know from our struggle dating back to the late 1990s, 
we survivors have tried everything we know to lift our brothers 
and sisters out of this grinding poverty, and little has 
worked.
    Instead, we have been blocked everywhere we turned, in 
court cases right up to the Supreme Court, in Congress, and 
even seeking proper level funding directly from Germany.
    Small and inconsistent gains over the years from Germany, 
channeled through The Claim Conference, are delivered uneven 
and inadequate ways, and we still see the poverty and misery at 
tragically high levels still today.
    After all, out of 110,000 survivors alive in the United 
States, some 55,000 are living near or below accepted levels of 
poverty. The present system and funding available simply 
perpetuated the status quo and will not uplift survivors from 
their present tragic situation.
    We have struggled, along with our members in Congress, in 
our fight all the way to stop this tragedy of survivors living 
in poverty for over 15 years, and we have not succeeded. In 1 
minute to midnight now, my friends, a solution must be found to 
stop this tragedy now, once and for all.
    As we have said here in the Senate over and over, the time 
has come to secure realistic funding level for the clinical 
mandated services needed by survivors to lift them out from 
their present cruel situation and to provide them with actually 
services needed once and for all.
    We have begged all the authorities involved in this tragedy 
to do the math and actually look what's being negotiated by The 
Claim Conference from Germany and compare the dollar results 
with what the doctors and the professionals have mandated for 
each and every survivors in dire need to alleviate their 
physical and mental health problems.
    Right now there is a total disconnect and everybody knows 
it, but nothing is done to correct this horrible imbalance. And 
the survivors remain trapped in horrors, if not enough care, 
and continue their suffering.
    Many well-meaning people seem to believe that piecemeal 
private fundraising and volunteer services is the right way to 
go. We know this is simply not true. Survivors should not be 
forced to endure more, and the same system has brought about 
this calamity.
    Half measures cannot provide home care, for mental health 
care, nor medical services to treat the damages caused by the 
malnutrition, massive infections, and brain infections. We have 
real cases which would shock you.
    We hope that soon enough, dear friends, there will be a lot 
of time to study and speak and have concerts and all those 
other good things, but they should not come before taking care 
of the human sufferings.
    Please use your powerful voices to amplify our failing 
pleas to help those among us most in need now, and that can 
only happen with the government assuming full care and cost for 
the actual needs for our brothers and sisters continue to 
suffer.
    Ad hoc private fundraising, U.S. taxpayers' fund, no 
volunteers, no matter how we are met, we will never do the 
actual appropriations. From Germany will do, as Chancellor 
Adenauer pledged. And we will never solve those tragedy 
survivors who are suffering.
    We believe the actually unmet need for survivors care for 
the needs among emergency services and proper professional-
based home care fund is in the billions of dollars. The only 
fair and decent option today is a partnership with the German 
Government will suffice today with guaranteed funding for the 
actual needs presented.
    Holocaust survivors are not asking more help from the U.S. 
taxpayers. Survivors already benefit from many programs for the 
elderly and should continue to do so. We hope this can be made 
better for our elderly in U.S.
    However, taxpayers are already burdened enough. And soon 10 
million American baby boomers will be turning 65 every year for 
the foreseeable future.
    Holocaust survivors endured ghettos, starvation, disease, 
concentration camps, killing factories, and death marches, came 
to the United States and became proud and productive American 
citizens. Many survivors served this country in combat in Korea 
and Vietnam. I myself am a U.S. military veteran.
    But survivors are fiercely independent and never wanted to 
rely on their fellow Americans for a penny of assistance. The 
same survivors now have to ask for help because they can no 
longer care for themself.
    The United States did not cause this problem for the 
survivors today. Nazi Germany did. Insurance companies, such as 
Allianz and Generale, should also be called upon to contribute 
to social funds because their Holocaust profits.
    We are losing more and more survivors every day. The 
remaining survivors need our help now. We need this committee 
to figure out how much they need for housing, dental care, home 
health care, and other services, and then use your stature of 
power to help us secure the needed funding today without any 
more delays.
    We need the President, the Vice President, the entire 
administration, this committee, and the entire Congress to 
pressure Germany and all culpable business entities to fulfill 
their moral obligations to the Holocaust survivors.
    We believe this committee and our elected Members of 
Congress, Madam Chairman Ros-Lehtinen, and Ranking Member 
Deutch, in bringing your caring colleagues in the House and the 
Senate along with you, as Senator Nelson and Senator Boxer have 
done in the Senate.
    Thank you, Madam Chairman and Mr. Ranking Member. We know 
each other too well for such formalities. You know better than 
anyone else what we need. Please, use this hearing as an 
opportunity to make a real difference for the remaining 
survivors who desperately need your help.
    Finally, I have several important articles, letters, that I 
wish to be included as part of my statement for the hearing 
record and ask they be included.
    Thank you very much.
    [The prepared statement of Mr. Rubin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Mr. Rubin.
    And I do notice that you cite here various testimony. And 
subject to the length limitation of the rules, we will try to 
put some of that testimony in the official part of the record. 
So I note your request.
    Mrs. Firestone.

    STATEMENT OF MS. KLARA FIRESTONE (DAUGHTER OF HOLOCAUST 
                           SURVIVORS)

    Ms. Firestone. Thank you, Madam Chairman, for this rare 
opportunity to present. My name is Klara Firestone. I was born 
in Prague, Czechoslovakia, immediately following the end of 
World War II. And I am the daughter of two Holocaust survivors. 
I am the founder and president of Second Generation of Los 
Angeles. And I am also a psychotherapist, specializing in 
treating children of survivors.
    Since 1978, I have been steeped in the Holocaust affairs, 
and have worked hand in glove with members of the survivor 
community in Los Angeles and our surrounding counties. I come 
here today to speak on behalf of myself, my family, and 
hundreds of survivors and second generation, who I have 
counseled and ministered to over the past 37 years and who have 
not had a voice to advocate for their rights. I have 
facilitated hundreds of support and therapy groups for children 
of all Holocaust survivors. And I have also been instrumental 
in helping survivor families navigate what have often been very 
complex and difficult relationships between parents and 
children, given the extreme trauma that served as the backdrop 
for our developmental years and most of our lives.
    There is a long trail of problems that thousands of 
survivors and family members have confronted, too often with 
incredibly frustrating and painful outcomes. If half of all 
survivors worldwide, including in the United States, are living 
today in or near poverty, lacking the basics for a dignified 
old age, then the approach of the past 50 years is obviously 
wrong. I echo the words of others who have discussed the 
medical and emotional issues that survivors and the second 
generation must deal with on a daily basis. The problems are 
real, and they require serious, professional attention with 
properly trained health care and psychological caregivers who 
understand the unique problems that survivors and their 
children must deal with. Proper care requires a sea change in 
the funding available. And it is only just and right that this 
responsibility be assumed by the German Government and other 
entities that collaborated and profited from the Holocaust.
    When the Holocaust ended, the fragments of Europe's Jewish 
communities emerged broken and tattered, wanting nothing more 
than to find who of their families survived and begin 
rebuilding their lives. They were too busy fighting their 
demons to care about fighting the bureaucracy in order to claim 
what was due to them. Many believed, as my mother also did 
then, that this was blood money. How can you compensate me for 
the loss of my parents, my brothers, my sisters, my aunts, my 
uncles, in dollars? What value should I assign that? So, once 
again, their claims and needs went unmet.
    As the most active and visible leaders in our survivor 
community, my mother and I have been approached hundreds of 
times by survivors and their children beseeching us to 
intervene on their behalf to recover restitution which is 
rightfully theirs. Time and again we have attempted to do just 
that, and we too have met the brick wall.
    Even advocating for my own family has proved to no avail. 
My beloved father passed away in 2001. Prior to his death, he 
had received a letter from the Claims Conference confirming 
that they had assigned him a claim number for a particular 
fund, and he would soon be receiving the moneys. After 
contacting them numerous times over the years, we are still 
waiting for those funds. They now claim they are unable to find 
his claim in the system.
    You cannot imagine the pain and frustration this causes the 
loved ones of Holocaust survivors, not to mention re-
traumatizing the survivors themselves. And this is the kind of 
problem I hear about over and over again.
    Most importantly, I wish to touch on an issue which has not 
been discussed before today, which is vitally urgent and which 
has no other platform to be heard. That is the plight and 
suffering of many of our second generation members, the 
forgotten victims of the Nazi atrocities. There is an awareness 
now of something called transmitted trauma, the concept that 
the trauma our parents went through has been passed down to us, 
and the results of which manifest as if they themselves had 
experienced the trauma directly, a sort of vicarious PTSD. I 
can't tell you the number of desperate calls I have received 
from survivor parents troubled over their child's mental 
health. Some of the children have been so damaged by their 
teenage years that they have been totally dysfunctional the 
rest of their lives.
    Dear committee members, we are at the eleventh hour and 59 
minutes. And if something is not done quickly and sufficiently, 
my fear is that thousands of the remaining survivors will die 
tragically suffering their unmet medical and psychological 
needs. You called this hearing to see what can be done today to 
remedy this dire situation. And the answer is plain: Simply 
put, Germany must fulfill its moral responsibility to care for 
all the medical and mental health needs of the survivors and 
their families, with no more shifting of these huge 
responsibilities onto the shoulders of others who had no hand 
in creating these conditions. If this committee does only one 
thing as a result of this hearing, it should be a concerted, 
bipartisan, and relentless effort to convince Chancellor Merkel 
and the German Bundestag to make good on Chancellor Adenauer's 
pledge in 1952 to take care of Holocaust survivors ``to their 
last breath'' and to fully fund the needs of our aging 
survivors without offset or delay. In addition, we would 
strongly urge that a new vehicle for distribution of these 
funds be required, with full transparency and oversight.
    I thank Chairman Ros-Lehtinen for allowing me to testify 
today.
    I am particularly gratified that Chairman Rohrabacher, who 
is from my State, has agreed to cochair.
    I thank the ranking member, Congressman Deutch, who along 
with Congresswoman Ros-Lehtinen, have been our steadfast 
champions.
    It is heartfelt. You don't know.
    And I ask that certain exhibits be allowed to be also 
entered into the record.
    Ms. Ros-Lehtinen. Without objection, subject to the length 
limitation and rules.
    Thank you very much for powerful testimony, Mrs. Firestone.
    [The prepared statement of Ms. Firestone was received after 
the hearing and appears in the appendix.]
    Ms. Ros-Lehtinen. Dr. Paris. Thank you.

STATEMENT OF BARBARA PARIS, M.D. (PHYSICIAN WHO FOCUSES ON THE 
                  CARE OF HOLOCAUST SURVIVORS)

    Dr. Paris. Good afternoon, Chair Ros-Lehtinen, ranking 
committee members and subcommittee members. I am very grateful 
for the opportunity to speak before all of you today.
    Echoing in my head all day all the time is, ``Doctor, I 
can't sleep because every time I close my eyes, I am in 
Auschwitz.'' How can I take care of this patient, a demented, 
elderly woman? Every time I visit her at home she is exhausted 
and she just can't even close her eyes, telling me how she is 
so fearful of doing that.
    Can you, committee members and members of the audience, 
imagine the trauma of a child, a teenager, a parent being 
brutally shoved into a cattle car with no air, no bathroom, no 
food, for days. And that was just the beginning. Lined up for 
hours in the bitter cold with no shoes or coats, shaved heads, 
smelling the burning bodies and their loved ones in the 
crematoria.
    I ask you, committee members, does the German Government 
really need to spend their money interviewing anyone who could 
possibly have survived Hitler's dehumanization, torture, rape, 
medical experiments, starvation, and death marches? Do they 
really need to interview the few people who have survived to 
determined if they have been psychologically and physically 
harmed enough to deserve reparations? It seems absurd to me.
    Even when the German psychiatrist acknowledges damage, 
these patients are not physically or emotionally capable of 
completing the highly formalistic, complicated, and overly 
bureaucratic correspondence requiring yearly physician input, 
notarization, and more. I as a physician, with all of my 
degrees, am truly challenged to complete these forms. They are 
written in German, and they ask for a level of detail about 
past events that I cannot ascertain from a demented patient. 
And from other patients, it is very traumatizing to have to 
relive these details and be forced to rejustify their right to 
reparations every single year. It is a very clever way of 
withholding money from disabled people.
    Thankfully, many survivors are well into their 90s, and I 
have the honor and privilege to be their doctor. While they 
have exhibited tremendous vitality in building new lives and 
families in America, they have sublimated their losses into 
flawed parent-child relationships, night terrors, and silently 
reliving the Holocaust in a hell to themselves. One second 
generation survivor poignantly pointed out to me, although I 
did not realize this as a child, I understand now that the 
Holocaust was playing out in my living room every single day.
    Make no mistake, every survivor suffers from post-traumatic 
stress disorder. The German Government needs to face this 
crystal clear fact and begin to act upon it. I just want to 
review what exactly this means, post-traumatic stress disorder. 
It is a disorder that occurs when a person has experienced, 
witnessed, or was confronted with an event that involved actual 
or threatened death or serious injury, or a threat to the 
physical integrity of self or others. And the person's response 
involved intense fear, helplessness, or horror. It is 
characterized by repeated reliving of the life-threatening 
events in the form of images, thoughts, illusions, flashbacks, 
dreams, or hallucinations. I wonder how many health care 
providers today actually make that connection with a patient in 
front of them.
    A close professional colleague, Jochanan Stessman, has been 
studying aging survivors in Jerusalem since 1990 and comparing 
them to nonsurvivors of the same age residing in Jerusalem. 
Survivors tend to be less educated, have fewer social supports, 
greater difficulties with activities of daily living, and 
greater uses of psychiatric medications. This, of course, is 
not surprising and must be addressed. Aging survivors, with 
more time on their hands and fewer activities to occupy their 
day, are back in the ghettoes and concentration camps, grieving 
for their dead relatives, hiding food in their beds, depressed 
and guilt ridden that they survived, afraid of doctors, fearing 
to acknowledge any weakness, as that was an automatic death 
sentence, anxious about showers, standing on lines, wearing 
I.D. bracelets, and lots more.
    We need resources to create comforting, affordable care 
home environments designed that do not trigger these fears in 
these people. In their retirement and facing death of spouses 
and friends, survivors are beginning to uncover these painful, 
suppressed memories, and grieve the deaths of their own 
parents, sisters, brothers and, in many cases, their own 
children. For these survivors, the year is 1946; it is not 
2014. Doctors and other health care providers and caregivers 
are not educated in the unique skill sets needed to 
respectfully and compassionately help survivors live in their 
final years in relative peace. Caring for survivors requires 
fully trained health care professionals who understand this 
unique population's emotional and medical needs.
    And what about their children, the second generation, and 
even the third generation? Their therapists, mostly, don't 
understand this transgenerational effect of trauma on their own 
emotional difficulties, including failed interpersonal 
relationships, depression, anxiety, schizophrenia, and much 
more. Their parents, depleted of psychological resources, were 
often emotionally detached but simultaneously feared any 
separation from their children in very suffocating ways. One 
frustrated lawyer son of survivors tells me the reparations 
program totally ignores emotional mental scarring and financial 
needs of the offspring of survivors. Growing up in a home with 
a parent who was incapable of nurturing her children led me to 
many years of psychotherapy. Yet the Germans refuse to 
acknowledge any causal connection or obligation to reimburse my 
therapy expenses. In fact, they exhibit a rigid, myopic notion 
that insisted that the effects of the Holocaust were not passed 
onto the children of survivors. Or even if there was some 
leakage, Germany maintains it has no obligation to compensate 
or assist members of that select offspring group.
    I ask you, committee members, how much can the recently 
announced $3,280 cover in expenses for child survivors? A set 
of dentures? A set of hearing aids? Six weeks of a 24-hour home 
attendant? How many home visits with an occupational therapist, 
a medical doctor, psychiatrist, social worker, bereavement 
counselor, medications? One month's rent? Transportation costs? 
It does not even make a dent in addressing the ongoing, unmet 
medical and psychosocial needs.
    AMCHA, the National Center for Psychosocial Support of 
Survivors of the Holocaust and the Second Generation, is a 
group in Israel that has developed a rich body of unique 
knowledge in the late effects of Holocaust traumatization and 
its intergenerational transmission. You have an article that I 
submitted that tells you about the needed resources. The 
financial needs for caring, the resources, and education of 
caregivers and health providers are many. We must advocate for 
our citizens here who came here physically and emotionally 
spent, yet managed to rebuild their lives at great personal 
cost. We must not ignore or minimize their needs and the needs 
of their offspring. I am honored to have this opportunity to 
spell this out to you in Congress. And this is only a small 
part of what I do all day. I struggle daily to creatively 
piecemeal together and coordinate all the far too few resources 
that can help provide a modicum of relief and maybe even a 
little pleasure to these survivors in the last years of their 
lives. Their families are running out of time, as you have 
heard. They are depending on this committee and Congress to 
step in and use your power to help them and to be responsible 
in providing the many, many unmet needs of this population and 
their offspring. Thank you.
    Ms. Ros-Lehtinen. Thank you very much for very vivid 
testimony about the real effects.
    [The prepared statement of Dr. Paris follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Did you want that article to be included 
as part of the record?
    Dr. Paris. Yes.
    Ms. Ros-Lehtinen. Without objection, and subject to the 
length limitation in the rules.
    Thank you, Dr. Paris.
    Ms. Lieberman.

   STATEMENT OF MS. EUGENIE LIEBERMAN (DAUGHTER OF HOLOCAUST 
                           SURVIVOR)

    Ms. Lieberman. Madam Chairperson and committee members, 
thank you for giving me the opportunity to speak with you here 
today. And before I start my prepared statement, I just want to 
say that the testimony of the other witnesses resonated very 
profoundly with me, especially the last of Dr. Paris.
    So, to begin, my name, as you know, is Eugenie Lieberman. I 
was born Eugenie Segalowitz, the daughter of Ivar Segalowitz, 
who some of you may have met before. Ivar was a Holocaust 
survivors who lived and raised his family in Great Neck, New 
York. Sadly, my father passed away just a few months ago, 
succumbing to prostate cancer on June 23rd, 2014.
    My mother, Bernie Segalowitz, who still resides in Great 
Neck; my brother, Ralph Segalowitz, who lives in East Setauket, 
Long Island; our children, Suzanne, Melissa, Jonathan, and 
Michael; spouses, Cathy and Jay; and I, will carry on his 
legacy of fighting for the rights of survivors. The sense of 
purpose and dedication to humanitarian causes that my father 
instilled in us brings me here today. My father was born in 
Memel/Klaipeda, Lithuania, on August 17, 1930, of parents who 
were German citizens. The entire family--his parents, Erna and 
Boris; his aunt Anna; and Aunt Eugenie, after whom I am named; 
Uncle Tobias Mazur; his grandmother; and great aunt, were all 
killed by the Nazis. Ivar, my father, survived life in three 
concentration camps, having endured imprisonment in the Kovno 
Ghetto, then Dachau, Auschwitz/Birkenau, and, finally, a death 
march to Buchenwald. At 14 years of age, on April 11, 1945, he 
was liberated from Buchenwald by the American Army. He was the 
only member of his incarcerated family to survive. Upon 
liberation, he was shipped to a school for orphaned children of 
the Holocaust in France. And after being there for 2 years, his 
aunt, his mother's sister, who had come to the United States 
before World War II, found him with the help of the Red Cross 
and brought him--sponsored him to come to this country.
    When he got to the United States, he finished his high 
school education by attending Stuyvesant High School at night 
and obtained vocational training as a machinist during the day. 
In the following years, he worked in machine shops, began 
attending college at night, got married, served in the United 
States Army Intelligence Corps as a corporal during the Korean 
Conflict.
    In 1968, he graduated from City College of New York with a 
bachelor's degree in physics. My father spent most of his 
working career in manufacturing, serving as VP for two 
companies on Long Island and then as a consultant, obtaining 
six patents by the end of his time in the public sector. In 
2002, he was elected for his first 3-year term as a Great Neck 
parks commissioner. He served in that capacity for three 
consecutive terms, making significant contributions to the 
community, for a total of 9 years.
    Before World War II, Ivar's father, my grandfather, Boris, 
was a successful processor and distributor of flax products in 
Lithuania. Ivar's grandmother owned a popular shoe store. My 
father always believed that his father would have provided for 
his offspring with life insurance. He knows that both his 
father and grandmother were responsible business people who 
were committed to their families. They would have purchased 
insurance in good faith. My father, the only member of his 
family to survive the Holocaust, a U.S. military and Korean War 
veteran and a former elected official on Long Island, was also 
heir to several insurance policies, likely sold to his family 
by European life insurance companies. Yet after all this 
service and participation in American civic life, he was unable 
to employ the basic constitutional rights to bring suit on the 
insurance companies in court.
    For as many years as I can remember, my father was active 
in pressing for all survivors to have their insurance rights 
restored and to find help for tens of thousands of Holocaust 
survivors living in poverty. He was on the executive committee 
of the Holocaust Survivors Foundation and had traveled to 
Washington on several occasions to lobby the New York 
congressional delegation on these issues.
    My father was anguished and disappointed by the fact that 
the United States Government he revered and served would oppose 
his basic right to go to court to pursue his family's insurance 
policies. He knew he might not win, but how could he not even 
have the right to try? He could not understand how Congress 
repeatedly turned the survivors down.
    I cannot understand that my father, a giant in life, died 
despite the incredible losses he endured, without the ability 
under U.S. law to reclaim the legacies of his parents, his 
grandparents, and other relatives, and that he was one of 
thousands, many of whom already died in frustration, whose 
rights had been denied as well.
    Now Ivar is gone and will never have the satisfaction of 
learning about this part of his family's history, even though 
the records exist. Ivar had spent an extensive amount of time 
and effort compiling information to support his claims. He had 
presented these documents and information to the proper 
organizations, institutions, and governmental agencies, with no 
satisfactory response. We only ask your assistance in obtaining 
the definitive proof that these policies existed and providing 
the judicial forum in which to obligate the companies to 
disburse the benefits to the insureds' legal beneficiaries and 
heirs.
    Ivar submitted claims to the ICHEIC on his relatives who 
were listed on the Web site. The only policy that was 
acknowledged was for Siegmund Joseph, his grandfather, who died 
in 1929 and whose policy was paid out. ICHEIC couldn't find any 
information about the other relatives whose names were 
published, who were all alive when the Holocaust began.
    Recently, I attempted to meet with the German consulate in 
Miami about these issues and was left disregarded in the 
waiting room for 2\1/2\ hours with an appointment.
    The unpaid policies have remained secret and not accessible 
to Ivar or his children despite the fact that German insurers 
published his relatives' names on the ICHEIC Web site, proving 
that these individuals did have policies. But the system has 
denied him all this information, including the names of the 
companies who sold the policies.
    My father also devoted many hours in his retirement 
advocating for the needs of indigent survivors who could not 
afford the basic necessities for a dignified old age. 
Thankfully, my father's situation was such that he could obtain 
the care he needed. But he knew that so many other survivors 
were not so lucky. He saw firsthand the prisoners subjected to 
unimaginable physical and emotional injuries at the hands of 
the Nazi regime.
    If he were here today, he would urge Congress to use its 
influence with the German Government and companies that 
profited from the Holocaust to provide full funding for the 
needs of Holocaust survivors who need help throughout the 
world.
    Madam Chairman and members, thank you for allowing me to 
testify.
    And please include the attached exhibits in the record of 
the hearing.
    Ms. Ros-Lehtinen. Without objection, subject to the length 
limitation of the rules.
    [The prepared statement of Ms. Lieberman follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Ivar would be very proud to see you 
continuing the fight. Thank you very much.
    Thank you to all of our witnesses. Our panel has been 
extraordinary. Thank you for your courage. Thank you for your 
strength to keep at this year in and year out and never giving 
up. For everything you have done and will continue to do on 
behalf of Holocaust survivors in the U.S., Israel, worldwide, 
this hearing is about the needs and the well-being of survivors 
and their families.
    Regretfully, nearly 70 years later, humanity continues to 
fail the victims of Hitler and the Nazis. We have heard your 
heartbreaking and remarkable stories. And, again, I just want 
to say how truly inspiring each and every one of you is. As I 
said, my constituents continue to tell me about the failures of 
not just the other governments, but sadly, our own great, 
terrific government has let them down as well. My good friends 
David Mermelstein and his wife, Irene; Joe Sachs and his wife, 
Marcia; David Schachter; Alex Gross; Alex Moskowitz; Herb 
Karliner, so many others. They repeatedly tell me that they 
feel let down by our efforts on behalf of survivors.
    So, Mr. Rubin and Ms. Firestone, two questions for you. 
What more can we do in Congress? What more can our U.S. 
Government do to help alleviate some of these concerns? Also, 
what challenges and obstacles do survivors continue to face? 
And Dr. Paris, I would like to ask you a question. You have 
dedicated most of your career to the care of Holocaust 
survivors and their families. You detailed so many concerns 
that they have. What are the most common health issues that 
impact survivors? How can we help to ensure that they are 
getting the proper care and treatment that they need?
    And that first question for Mr. Rubin, Ms. Firestone, is 
also for you, Ms. Lieberman, because the second generation of 
survivors.
    And Ms. Firestone, you work with heirs and families of 
survivors. I think a lot of the times we overlook the toll that 
is taken on the families, the children of survivors, the many 
issues that they face. How are the problems facing the second 
generation different from the survivors? And do we have 
programs currently out there that can address those issues? So 
a lot of questions.
    We will begin with you, Mr. Rubin.
    Mr. Rubin. Well, like I said before, Nazi Germany caused 
this problem that we are having today. And I think the German 
Government should be responsible to see to it that those of us 
who are still alive, that we can live out our lives in dignity, 
not in misery. I myself am very fortunate. I worked very hard. 
Thank God, I don't have to go on welfare. But a lot of people, 
a lot of Holocaust survivors, they don't have the same pleasant 
situation. And, like I said, Congress could see to it that the 
German Government sees to it, like Chancellor Adenauer 
promised, that Germany will take care of the Holocaust 
survivors to their last breath. So I don't know, Germany does 
not honor their Chancellor, and that is a shame, because that 
was his request when he became Chancellor of a democratic 
Germany. And Germany could afford it.
    Not only Germany, but also the insurance companies who 
robbed us, robbed our parents' policies. And they are sitting 
on billions of dollars. They are holding onto it. And they 
don't even want to see to it that they just help us a little 
bit so we should have some final answers to see to it that 
those Holocaust survivors who are in need should be getting it. 
Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Rubin.
    Ms. Firestone.
    Ms. Firestone. Thank you. I think that what people don't 
realize is the vastness of the Holocaust, the far-reaching 
effects of the Holocaust. The ripple effects go down not only 
to the second generation, but the third and sometimes the 
fourth generation. But the second generation is very, very 
unique among populations, especially for mental health.
    And if I might just point out a couple of things briefly. 
Number one, we are a generation, if you can imagine, totally 
cut off from our ancestry. The buck stopped here at the 
Holocaust. We stand in the same position almost as an adopted 
child who doesn't know where they came from. We begin at day 
one after the Holocaust. And we have no extended families, had 
no extended families, or only fragments of extended families to 
raise us and support us, where others had grandparents and 
aunts and uncles and cousins for whom they could rely on 
support, especially emotionally.
    Because we had parents raising us who were children 
themselves when they went through the Holocaust and who had no 
training in parenting. So when they, in desperation, coupled up 
after the war, they now went on to raise children. With what 
tools? With what emotional tools? They didn't have them. So we, 
the second generation, really got the brunt of it emotionally, 
because our parents up until the Holocaust had the benefit of 
wonderful childhoods up until that dire time in history.
    So whatever can be done that brings funding for mental 
health for second generation, I am begging you, it needs to be 
done. We have survivors who come to me because their children 
have been totally disabled and dysfunctional their entire 
lives. And now they are coming to the end of their lives, and 
they are frightened about what will happen to their children 
who can't provide for themselves financially. And this is a 
very real concern and a very big concern. It is not just one or 
two people. So, again, whatever can be done.
    Certainly Germany needs to provide the adequate funding. It 
was they who caused the problem. And they need to accept that 
responsibility and provide adequate funds for it. But the 
Claims Conference needs to get up off the money and start 
giving it to the people for whom it was negotiated.
    Ms. Ros-Lehtinen. If I could interrupt, because I know we 
have two more witnesses to answer. About the Claims Conference, 
about ICHEIC, so often we hear that this was settled, 
everything was taken care of, everyone signed forms, all the 
claims were paid out. And, in fact, very few claims were 
actually paid out. And one thing that ICHEIC was very 
successful in doing is denying you the right to go to court. 
What happens when a survivor puts in a claim in court and wants 
to have their day in court? What happens there?
    Ms. Firestone. Well, now they don't put it into court. 
There was a remainder committee created in New York that 
ostensibly is supposed to deal with those claims. And, yes, 
maybe a handful of claims have come through. My cousin was the 
first person to receive restitution from ICHEIC. Because at the 
very magical occurrence when he returned home after the war, he 
found the insurance policy of his parents. So he did have----
    Ms. Ros-Lehtinen. Which is very difficult for survivors and 
family members.
    Ms. Firestone. It is not difficult; the word is 
``impossible.'' No one marched off to Auschwitz with anything. 
And no one got to Auschwitz and 5 minutes later had anything--
and certainly not documents. So this was the rarest of 
occurrences that he would have found this document still in the 
family home.
    When his nephew went to claim, because the families had 
these insurance policies, he was told it had already been 
settled. He didn't even know that his uncle had claimed on the 
document. But why didn't they do due diligence? Why didn't they 
find out that there were other family members? Because they 
never put out adequate notices for us to know what was going 
on, for us to be able to come forward to do that.
    The same thing happened with the German properties in East 
Germany. They gave a 2-year window. What kind of 2-year window 
is that for the world to find out about something if you are 
not putting out adequate notices for us to even know that we 
can do this? But even when we tried, we get the door slammed in 
our face all the time. And ICHEIC paid out all of 3 percent of 
the moneys and claimed that they did a great job.
    The Claims Conference claims the same thing. They 
negotiated all these billions of dollars over the years, and 
they are still holding on to all of it. Why wasn't it just 
given in the claims to the survivors when they claimed it?
    Ms. Ros-Lehtinen. The mechanisms were there, but it was 
never successful. Yet they--because they existed, they are able 
to say, See, we had this, everybody is fine.
    Ms. Firestone. And in addition, the Claims Conference, and 
I know this from people who came to me for help, very often 
they had the proof of the claims, and they suffered the 
atrocities and the indignities, but artificial roadblocks were 
placed in there by the Claims Conference claiming that Germany 
had done it. Well, I have a friend in Germany who is an 
attorney. And I asked him at one point to please look into a 
particular case. He came back and told me there was no such 
roadblock given by the Germans. It was the Claims Conference 
who did it.
    Ms. Ros-Lehtinen. Thank you very much.
    Dr. Paris and Ms. Lieberman.
    Dr. Paris. Thank you. Oftentimes, or when I am dealing with 
a patient that comes into my office, I am actually dealing a 
dyad, a mother-daughter, a mother-son, or the whole family of 
multiple children and the patient, as a geriatrician, is 
usually the older patient. But it doesn't really turn out that 
way because you really have to treat the whole family in order 
to treat the patient.
    And I think that brings up family therapy as a very 
significant unmet need in taking care of survivors and their 
offspring. Because there are many roadblocks to the care of the 
patient because the children in their dysfunctional 
relationships with their parents often create roadblocks to the 
appropriate care on many levels. Very specific health care 
needs I think are well documented in the literature and you are 
familiar with. You mentioned osteoporosis, the consequences for 
my patients are severe compression fractures, severe pain, 
immobility, and severe degenerative joint disease, multiple 
replacement of joints because of severely worn out joints. 
Terrible problems with teeth and dentures, which have 
tremendous effect on the whole well-being of the person in 
terms of malnutrition as a result of that and even heart 
disease, endocarditis because of an infection from very poor 
gum care over many years.
    It is important to point out that it is not a medical and a 
psychiatric need. Somebody who has post-traumatic stress 
disorder, severe anxiety, depression, paranoid behavior, that 
affects their physical health, too. So it is one sort of 
combined problem in these patients. It is frustrating for 
doctors, most of whom don't have the sensitivity or 
understanding of this. And they say, Here is a pill. And it 
doesn't work, and the family member doesn't give it, and the 
patient doesn't want to take it because they are so paranoid of 
all medical care that it becomes a very complex management team 
to even take care of what otherwise might be a very simple 
medical problem.
    Ms. Ros-Lehtinen. Thank you.
    Dr. Paris. I think it is very important to recognize that. 
And now many of the people that I am taking care of are well 
into their 90s. And we are into a whole host of new medical 
care needs that have to do with end-of-life issues. And often 
patients and their children are unable to let go. They are 
unable to see suffering in their parents. But yet, at the same 
time, my mother saw death; you need to do everything to keep 
her alive right now. And inappropriate treatments or painful 
treatments because they just can't let go. And doctors are not 
trained in how to sensitively discuss end-of-life issues and 
goals of care with these patients.
    Ms. Ros-Lehtinen. Thank you, Dr. Paris. I am just so way 
out of time.
    I want to give Ms. Lieberman a chance to answer. Thank you 
so much.
    Ms. Lieberman. Okay. As a child of a Holocaust survivor, I 
think Dr. Paris explained some of the challenges that we deal 
with. And then, as a parent in this country in this time, you 
want to bring up your children to be productive and happy 
members of society. My husband and I are both children of 
Holocaust survivors. And every day we face the challenge and 
exert great effort to make sure that the effects and horror of 
our parents' broken childhood and their survivorship ends with 
us. And I am not sure we always do that successfully.
    In terms of your question, what would be appreciated or 
what kind of programs would we like to see in the future, from 
my point of view--and I hope I am representative of other 
survivors--we would be grateful for any programs that would 
enable us to reach that goal that all of us as parents want for 
our children, not to suffer the consequences of us having 
parents who are Holocaust survivors and underwent the horrific 
situations that they went through.
    And then, in terms of ICHEIC, I think the bottom line there 
is to have a legal remedy for citizens of the U.S. Government 
to file in the courts and be able to move the insurance 
companies forward with opening their books and allowing us to 
see who actually had insurance policies and who didn't.
    Ms. Ros-Lehtinen. What a concept. Thank you so much.
    Thank you to all of our panelists.
    So pleased to yield to another fighter for Holocaust 
survivors, Mr. Deutch, my colleague.
    Mr. Deutch. Thank you, Madam Chairman.
    And thanks to our witnesses today. I want to come at this a 
little bit differently. And I want to do it because of a 
conversation that Mr. Rubin and I had when I spoke with him as 
he was preparing his testimony before coming up here.
    And he told me that--I believe what you said, Mr. Rubin, 
is, I am 86--86--I am tired, and I just can't keep doing this. 
We can--and this is as much to the witnesses as it is to every 
group who is paying attention to this hearing. And for all of 
the groups that were worried, quite frankly, about where this 
hearing might go, let me be clear: Mr. Rubin is right. It is 
time that we do the math, that we determine what doctors and 
professionals have mandated in order to address--I am quoting 
you--the physical and mental illnesses, in order to address the 
emotional needs, housing, home health care, dental care. Let's 
figure out what the needs are. And I am going to say something 
different. When I was in the State Senate, and now in Congress, 
we have worked to press insurance companies to open their books 
so that survivors can pursue justice, and I believe that.
    But I want to be clear, this is not, nor should it become, 
an ongoing battle to defend actions that have taken place in 
the past. This should be an effort to focus on the fact that 
there are survivors who are old and dying and need help. And we 
don't need to attack--the groups don't need to attack one 
another. And let's just--let's assume good will on all sides. I 
acknowledge that, despite some of the accusations against the 
Claims Conference and its successor organization for 
mismanagement of funds, there are an enormous number of people 
who have devoted substantial amounts of time through the Claims 
Conference, which has led to some $60 billion from the German 
Government, money from the Austrian Government, from Germany 
and Austrian industry, that has helped survivors. And I am so 
appreciative for all of that.
    But that doesn't mean that because that is what has been 
done, that there isn't more that can be done to address needs 
today.
    And I will say it with respect to ICHEIC, that $300 million 
to survivors, $100 million to social service agencies, and the 
incredible commitment by really dedicated people who care about 
survivors can't be overlooked. And I am grateful for it. But 
suggesting that, when there are still real needs, that it is 
acceptable for us to have a conversation with those insurance 
companies to figure out how those needs can be met doesn't blow 
up the entire ICHEIC process, doesn't call into question the 
effectiveness of so many who have worked so hard, who worked so 
hard to put that in place. It simply means that we have to 
acknowledge what is on the ground now. And that is that there 
are survivors who have real needs that have to be met.
    So I know that there is a lot of money being spent on 
lobbyists, on lawyers, on PR professionals across all different 
groups, public, private. I understand that. But I would just 
ask that if we can figure out how to calculate the needs, not, 
as I said earlier, based on some formula of so many hours are 
permitted. Forget about what is permitted. What is needed in 
order to help our survivors live out their lives in dignity? 
There are communities in this country that have done it. And 
then they have gone out and they have raised the money in order 
to meet those needs. Why can't we do that overall? Why can't we 
figure out what the needs are, while respecting the work that 
has been done by so many for so long? This is not about 
indicting one group or another, one individual or another. I 
have respect--and I will say it one more time--I have enormous 
respect for all of the people who have worked so hard to put in 
place the programs that exist, the Claims Conference that has 
negotiated all this money, ICHEIC that has negotiated a lot of 
money. But the needs haven't been met.
    I said before and I will say again, we remain willing to 
work with all of these groups to figure out how to make sure 
that these needs are met and to do it in a respectful way and 
ask only from those who can help us reach this goal to work 
with us, not against us, and to know that together there is an 
opportunity to do right by Mr. Rubin and by everyone here.
    And in Eugenie's father's, in Ivar's memory, and in memory 
of all those survivors who have passed on before we had this 
opportunity to get this right, let's work together on their 
behalf, in their memory. And on behalf of Mr. Rubin and the 
survivor community that he and Ms. Firestone and Dr. Paris and 
Ms. Lieberman and the chair and I and members of this Congress 
care so deeply about. We can do that. And I just hope that we 
have the opportunity.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Clawson is recognized.
    Mr. Clawson. Thank you. And I want to recognize the ranking 
member, both from Florida, and both who are--neither one 
listening to me right now, but both I have a great respect 
for----
    Mr. Vargas. I am listening.
    Mr. Clawson. These are wonderful leaders. And I second 
everything that they have said here today. As I heard you talk, 
it brought chills on my spine. My own parents are in the autumn 
time of their lifetime. And, you know, you wonder what I would 
feel like if they were in your position. And I can't imagine 
that. So I want to say that I appreciate you coming and sharing 
personal histories, personal things.
    Ms. Lieberman, I have spent a lifetime in manufacturing. 
Never imagined myself here. Would have loved to have met the 
giant that your father was. And I think that you pay him great 
honor by doing what you are doing here today.
    I don't have the background that my colleagues do on these 
issues. This is my first time in this subcommittee. But I do 
think that there is no greater crime than genocide, and that 
the results of that go on forever. It is unmatched in 
barbarity. And, in addition to the lives lost, the day I hear 
about the looting, I heard about the looting across Europe, 
money and jewelry. And today we hear about looting via 
insurance policies.
    So, with me, you have an ally. My position is that the U.S. 
should lead and that Germany should step up. And I agree with 
what you said, Mrs. Firestone, to get it right, we should take 
care of these folks until the very last breath. And I am in 
full agreement with the concept and the heartfelt sentiment of 
that comment. I think deliverance--and the Jewish story is one 
of deliverance--and I think deliverance is never complete 
without financial justice as well, because I think--if I hear 
you right, Dr. Paris--that can help lead more easily to 
emotional justice and emotional peace. So I am on your side 100 
percent in anything I can do to help you in your cause. I stand 
ready and willing.
    While I have the mike, I would like to say I am also 
concerned about anti-Semitism in general in our world, the 
safety of Israel. You know, Hamas, Hezbollah, Iran, Syria, 
these sorts of nations and organizations make me feel 
uncomfortable. So as long as I am in Congress, I will do 
everything I can to help you and your cause to recover what is 
rightfully yours, and also anything I can do to help with the 
defense of Israel. And I appreciate you all coming today and 
for your sacrifices. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Clawson. We welcome you to 
our fight. Thank you.
    Mr. Vargas is recognized.
    Mr. Vargas. Thank you very much, Madam Chair.
    I appreciate everything that was said today, especially the 
testimony of the witnesses. You know, if there is one group 
that deserves justice in this world, it is the Holocaust 
survivors and their children. And it really is hard for me to 
understand why Germany doesn't come forward and meet its 
obligation, and why we allow it to not meet its obligation, why 
we don't do more. It seems that there is something that we 
could do. And I would join my colleagues in saying that, you 
know, if Germany won't do what it should do, we should stand up 
and we should do it. And we should in fact meet the needs of 
the survivors. I can't think of a group of people more worthy 
of getting their needs met. And like you said, not only their 
needs, but have some joy, for heaven sakes. I was thinking, as 
you were talking about family members, I am one of 10 kids. And 
my mom is one of over 10, as is my father. And their families 
were gigantic. And we have these gigantic families. And you are 
right, you know, I rejoice in the history and all the people 
that are around me and around my children. You know, what a 
horrible thing it would be not to have that. I couldn't agree 
with you more.
    What should we do? Mr. Rubin, I mean, you have heard some 
of the testimony here. Why doesn't the United States stand up, 
do what Germany should do? Why don't we charge them? Why don't 
we send them the tab? Why don't we do that?
    And for anybody that would care to answer that.
    Ms. Firestone. Are you sure you want the answer, 
Congressman?
    Mr. Vargas. Yes, I do. I am new, too. I am new, too. I want 
the answer.
    Ms. Firestone. In 2011, my mother sat where I am sitting 
and testified before the full House Foreign Affairs Committee. 
She also sat before the Senate Judiciary Committee. One of the 
main roadblocks that we have to the insurance legislation that 
we came pressing for was our own State Department. They put the 
kibosh on our ability to go and have our day in court.
    We have some survivors who were actually young enough when 
they got out, including my own uncle, who was 14 during the 
Holocaust, got out of Auschwitz, came here, and turned around 
and went back to Korea and served in Korea. We have survivors 
who were actually in the military and serving their country 
because they loved this country and saw it as their salvation.
    And now we have our own Government standing in the way. The 
executive branch, the Office of the President also, we have 
been told that our country has offered ``legal peace'' to the 
insurance companies and Germany in exchange for them putting 
together ICHEIC, I believe. But ICHEIC was woefully 
inefficient, closed its doors and patted itself on the back 
that what a great job it did. The Claims Conference does the 
same thing.
    But in the early--I believe it was 1982, but please don't 
hold me to that exact date, but I know it was in the 1980s, 
when I saw the bylaws that changed their mandate to not 
providing only for the survivors, but now there was what we 
call the 80-20 split, where 20 percent would go to Holocaust 
education and restitution. Did we really need the Claims 
Conference to do that? Almost every Holocaust museum and 
monument in this country was built by the survivors, was 
started by the survivors as a place where to memorialize their 
families.
    Dr. Paris. Mr. Vargas?
    Mr. Vargas. Yes, Doctor.
    Dr. Paris. I would like to answer that question from a 
different viewpoint and that being the squeaky wheel viewpoint. 
I think you are looking at a very few select witnesses here and 
that most survivors do not advocate for themselves in any way. 
That is the majority of the survivors. And I think that goes 
back to when they came to Israel and when they came to this 
country, no one cared, nobody wanted to listen. And they 
themselves buried their memories and went on with their lives 
to rebuild new families. Many have been extremely successful 
financially and in many other ways, many, many children, et 
cetera. They are only now in their older age unburying those 
memories and can't protect themselves anymore because of their 
mental--they are not able to mentally. But they no longer have 
the strength and the ability to advocate for themselves. So I 
think that is a big part of the problem also.
    Mr. Vargas. Thank you.
    Madam Chair, thank you. I know my time is up, but I would 
be willing to help in any way, because I do think that this is 
an incredible injustice. And I can't think of a worthier group.
    Ms. Ros-Lehtinen. Thank you so much.
    And we have got a great bill that you can cosponsor.
    Mr. Vargas. Put me on.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Rubin. Can I say one more thing?
    Ms. Ros-Lehtinen. Yes, Mr. Rubin.
    And then we will go to Mr. Connolly.
    Mr. Rubin. I have been saying this all my life. Nazi 
Germany created this problem. And we, Americans, and you people 
who have the power to keep reminding Germany, you are 
responsible for this. And time has come when the need is great. 
You created it, and you have got to do what you are supposed to 
do to take care of the Holocaust survivors who are in need. And 
no ifs and no buts. It is up to you people. You have the power. 
You have the strength. And just go after Germany that you must 
do this. I mean, you can't just sit back and watch people 
fading away in misery. That is not fair to us. We are good 
American citizens. We love this country. I was fortunate enough 
to come to this country. But, in the meantime, to suffer and to 
see that the needy survivors are being neglected.
    They came up with $800 million last year to be spread out 
for 4 years, which is $200 million. That is peanuts. That is a 
drop in the bucket. That is an insult. And that is why I beg 
you people, you have the strength. Please, don't forsake us. It 
is enough that Germany destroyed us, my whole family, my 
parents. I was a young man--young man, I was 14, 15 years old. 
I lost my parents. I lost their love. I didn't grow up to have 
their love or the love I could give them. But now is the time 
already. The need is survivors. We are begging you, it is in 
your hands. You have the strength. Do it for us, please. 
Because, you know, there is no time. Time is of the essence 
already. This thing should have taken care of yesterday, not 
tomorrow. Again, I beg you.
    And I hope--I am 86 years old. I testified so many times 
that I don't even know how many times. I can no longer do it. I 
came up from Florida. I had to ask my son to come with me 
because I am feeling physically that I am giving out. But I 
see--I am on the advisory committee of Palm Beach County--I see 
what is going on. I see the need there. I am constantly in 
touch with the social workers. And they keep telling me, Jack, 
these people need 8 hours and some need 24 hours care, but we 
don't have the money. We don't have the money. And the money 
can only come from the German Government and insurance 
companies. So please do it. Do it for us.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Rubin.
    Pleased to yield to Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman.
    And thank you, Mr. Rubin, for that impassioned plea.
    I was struck by all of your testimony, but particularly 
yours, Dr. Paris. I was so struck by the catalogue of 
afflictions. And part of the problem with, say, narrative 
coverage of the Holocaust as a point in history is survivors--
you know, there were survivors. And I guess they all lived 
happily ever after. Almost no one talks about the lingering 
effects health-wise, and emotional, and psychological. Mr. 
Rubin just articulated it. He lost the love of parents as a 
young teenage boy. There is no getting that back.
    I would be interested in just hearing a little bit more 
about the progression. Is it common that, say, to--to be able 
to function, a lot of memories and emotions are suppressed, but 
as one ages, they--they are revisited, whether we wish it or 
not? Would that be a fairly common phenomenon?
    Ms. Paris. Yes. Very common.
    Mr. Connolly. Could you please turn on your mic.
    Ms. Paris. I am sorry.
    Mr. Connolly. That is all right.
    Ms. Paris. Yes. Mr. Connolly, that is very, very common. As 
one has--as a young, healthy person--fairly healthy person, you 
have the ability to suppress memories and events and go on with 
your life and you are very busy raising. You are a family, 
trying to rebuild your----
    Mr. Connolly. It is almost a necessary skill.
    Ms. Paris. It is totally necessary.
    Mr. Connolly. Otherwise, you are not going to be 
functional. Yeah.
    Ms. Paris. And society enforced that upon the survivors. 
Because, if you listen, no one wanted to hear anything, no one 
wanted to believe anything, and they didn't even have an ear.
    And they--you know, they wanted to integrate back into 
society, not be once again the outsiders, the people they were 
pointing fingers at as bad people or wrong people.
    They wanted to be part of society, part of America. You 
have heard that today. They wanted not to be separated out 
anymore and singled out as Jews, even.
    So I think--but when you get older and when your cognitive 
abilities are diminishing and you have plenty of time on your 
hands, it becomes much more difficult for your brain to 
suppress those memories.
    And patients who become demented or have any cognitive 
impairment, they become disinhibited, which is a medical term, 
meaning they just can't suppress them anymore, medically 
speaking, and the horrors get relived.
    As I pointed out in my opening comment, the patient was 
demented, but extremely hypervigilant. She--you know, ``You are 
here, Dr. Paris,'' you know, and she didn't even know what 
world she was in. But she knew that I was there. Because she 
was afraid of a stranger in her house stealing something.
    And then she would say, ``I can't close my eyes. I can't 
close my eyes. I am in Auschwitz when I do that.'' And then she 
would start with the whole story of being a teenager there, 
having her head shaved, and it was horrible to listen to every 
time I went to visit her. And she didn't know she was telling 
me that. She never told me that when she was healthier.
    Mr. Connolly. You know, especially with dementia, the 
boundaries between today and yesterday are very blurred. It is 
a very common phenomenon that dementia patients identify people 
who are deceased as very much alive and part of their world. So 
that doesn't surprise me at all, that that distinction between 
the past and the present kind of evaporates.
    Has--is there assistance of any kind available formally for 
folks as they get older--survivors as they get older to try to 
help provide treatment and care for the psychological and 
physical conditions you were describing?
    Ms. Paris. I find it very challenging and difficult, as you 
pointed out, Mr. Rubin, to get any help.
    I have many patients who are confused and demented, and 
they don't have 24-hour home care. They are living in unsafe 
situations.
    They are possibly above the poverty line. So, they don't 
even qualify for Medicaid services, home attendance or a 
nursing home, not that they should, God forbid, go to a nursing 
home. I don't think that is the best place for them. And they 
just are alone in very dangerous situations.
    And, you know, self-help gives, you know, 8 hours and this 
one gives 2 hours. And I can't even piece that together for 
them to get 24 hours. It is insane.
    Mr. Connolly. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    I want to thank the witnesses for the courage, the stamina 
to once again come back up here and plead for justice.
    We will do everything within our power to continue the 
fight, and we don't want to hear from the second generation, 
who are still coming up here and saying, ``My father was not 
made whole, but I am here to fight for him.'' We want to make 
this generation whole, and we will continue that fight.
    So we thank each and every one of you.
    Mr. Rubin, I know that you are tired, but you can't give 
up. We need you. Thank you very much.
    And, with that, the subcommittee hearing is adjourned. 
Thank you.
    [Whereupon, at 4:51 p.m., the subcommittee was adjourned.]







                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
